               May 20, 1999

               AZEEZALY S. JAFFER
               MANAGER STAMP SERVICES

               SUBJECT: Review of the Printing Error in the
                        Grand Canyon Stamp (RG-LA-99-001)

               Beginning on May 18, 1999, several national
               publications began reporting that a printing error
               occurred during the production of the 60-cent
               international commemorative Grand Canyon stamp,
               which would result in the destruction of the entire
               stamp production. As a result, the Office of
               Inspector General (OIG) initiated a brief proactive
               review of the facts and control processes
               concerning the printing error. This advisory letter
               report summarizes the results of our review.

Background 	   To design a new 60-cent international stamp, the
               Postal Service utilized a drawing of the Grand
               Canyon, one of our nation's famous landmarks.
               The Postal Service selected the Banknote
               Corporation of America, Inc., in Greensboro, North
               Carolina, to print the Grand Canyon stamp and
               authorized an initial production of 100 million
               stamps.
Review of the Printing Error in the Grand Canyon Stamp	                 RG-LA-99-001


                                 On or about May 11, 1999, Stamp Services staff
                                 discovered an error after the stamp was printed
                                 while it was been perforated. Specifically, the
                                 words "Grand Canyon, Colorado" appeared in the
                                 right-bottom corner of the stamp instead of Grand
                                 Canyon, Arizona. Beginning May 18,1999, several
                                 national publications including the USA Today, The
                                 Washington Post, and the Linn's Stamp News
                                 published articles about the stamp error and were
                                 critical of the Postal Service's process.

Scope and Objectives 	           In response to the press coverage, the OIG initiated
                                 a brief review of the circumstances surrounding the
                                 error on the Grand Canyon stamp in order to
                                 identify the following:

                                 •	 How did the error occur?
                                 •	 What management controls are in place to
                                    prevent and detect errors?
                                 •	 What is the current status of the stamp?

                                 We contacted officials with Stamp Services and
                                 Corporate Relations divisions to gather facts
                                 concerning the issuance of the Grand Canyon
                                 stamp.

Observations 	                   On May 18 and May 19, 1999, we interviewed key
                                 Postal Service Officials involved in the issuance of
                                 the stamp. The information gathered during our
                                 review is as follows:

Question: 	                      How did the error occur?

Answer: 	                        According to Stamp Services officials, Postal
                                 Service staff asked the stamp designers to identify
                                 the location by adding the words "Grand Canyon,
                                 Colorado" to the bottom-right corner of the stamp.
                                 Although, the Grand Canyon was created by the
                                 Colorado River, the Grand Canyon National Park is
                                 located in Arizona.




                                               2
                                    Restricted Information
Review of the Printing Error in the Grand Canyon Stamp	                   RG-LA-99-001


                                 The stamp had previously been reviewed by the
                                 Citizens' Stamp Advisory Committee and by the
                                 Postal Service's research consulting firm. However,
                                 once the words were added to the stamp, it did not
                                 go back to the consulting firm and Postal Service
                                 Management for final revisions, which is the
                                 established process. Instead, the printer added the
                                 words and initiated production. While the stamp
                                 was in final printing production, Stamp Services staff
                                 noted that the additional wording was incorrect.

Question: 	                      What management controls are in place to prevent
                                 and detect errors?

Answer: 	                        One of the key management controls in the stamp
                                 process is formal approval of the stamp design
                                 before stamp production begins. Once the stamp
                                 design is finalized, Stamp Services Management
                                 initials the original artwork to confirm their approval
                                 of the stamp image and to authorize production. In
                                 this instance, the printer had already received the
                                 approved artwork when the additional wording was
                                 added. Instead of the Postal Service approving the
                                 final changes by initialing the revised artwork,
                                 Postal Service verbally instructed the printer to add
                                 the text and continue production.

                                 In addition, as a result of an error in 1994
                                 concerning the Bill Pickett cowboy stamp, Postal
                                 Service began using a research-consulting firm to
                                 independently verify historical information relating to
                                 the stamp image (person, place, subject, or event
                                 being commemorated). Stamp Services staff and
                                 the members of the Citizens' Stamp Advisory
                                 Committee are generally knowledgeable about the
                                 subjects being commemorated. The consultants
                                 provide additional assurance to Postal Management
                                 that the stamp images and accompany narratives
                                 are factually accurate.




                                               3
                                    Restricted Information
Review of the Printing Error in the Grand Canyon Stamp                   RG-LA-99-001


                                 However, in recognizing past events on stamps,
                                 there can be disagreements in historical reference
                                 material over the supporting facts such as precise
                                 historical details and specific dates that can impact
                                 the visual characteristics of the stamp image.
                                 Therefore, Postal Service Management is
                                 responsible for examining any contradictory facts
                                 and making the final decision on the stamp image.

Question:                        What is the current status of the stamp?

Answer:                          According to Stamp Services staff, all of the Grand
                                 Canyon stamps are physically located at the
                                 Banknote Corporation of America's printing facility.
                                 Stamp Services staff plan to visit the facility the
                                 week of May 24, 1999, to count, verify, and witness
                                 the destruction of the stamps already printed.

                                 Stamp Services staff originally estimated the total
                                 production cost for the Grand Canyon stamp at
                                 approximately $500,000. Additional administrative
                                 costs will be incurred in destroying and re-printing of
                                 the stamp but production of the stamp was not yet
                                 fully completed. Stamp Services officials advised
                                 that they are currently negotiating with the printer to
                                 determine the exact and any additional costs to print
                                 the new stamp.

Conclusion and                   Based upon our limited review and interviews with
Suggestion                       Postal Service staff, we believe that the existing
                                 control processes should provide reasonable
                                 assurance that potential errors would be timely
                                 prevented and detected. However, in this instance,
                                 the Postal Service did not adhere to their
                                 established control processes.

                                 We suggest that Stamp Services Management
                                 adhere to existing control processes when
                                 authorizing changes to the approved stamp design.
                                 Specifically, if any subsequent revisions are made,
                                 resubmit the revised artwork for approval by Stamp
                                 Services staff before production is authorized.




                                               4
                                    Restricted Information
Review of the Printing Error in the Grand Canyon Stamp	                RG-LA-99-001



Management Response              We discussed the results of our review with Stamp
                                 Services Management on May 20, 1999 and they
                                 agreed with our results. Management
                                 acknowledged that because of human error,
                                 existing control processes were not followed and
                                 recognized that subsequent revisions to original
                                 artwork should have been formally approved before
                                 production was initiated. Management reiterated
                                 their commitment to follow existing control
                                 processes in the future.

Evaluation of                    We agree with Stamp Services Management's
Management's                     comments concerning the printing error and the
Response                         need to follow existing control processes in the
                                 future. We do not believe that additional audit work
                                 concerning the Grand Canyon Stamp is warranted
                                 at this time. However, we would appreciate if you
                                 would advise us of the outcome of your negotiations
                                 with the printer regarding production of the new
                                 stamp. Because of the overall significance of
                                 Stamp Services operations to the Postal Service,
                                 we have performed and plan to perform additional
                                 work on Stamp Services' major programs and
                                 operations.

                                 If you have any questions concerning our review,
                                 please contact              .



                                    //Signed//
                                 Sylvia L. Owens
                                 Assistant Inspector General
                                  for Revenue Cost Containment

                                 cc: 	John R. Gunnels
                                      Alan B. Kiel




                                               5
                                    Restricted Information
Review of the Printing Error in the Grand Canyon Stamp       RG-LA-99-001


Major Contributors to
this Report:




                                               6
                                    Restricted Information
